September 16, 2008

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Scheduled
         Maintenance Service in the Southeast Area
         (Report Number DR-AR-08-007)

This report presents the results of our self-initiated audit, Vehicle Maintenance Facilities
(VMF) – Scheduled Maintenance Service in the Southeast Area (Project Number
08XG005DR000). The overall objectives were to assess whether the Southeast Area
accomplished all required scheduled maintenance and whether they integrated both
VMFs and local commercial resources for optimum efficiency. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Southeast Area completed the majority of their required scheduled preventive
maintenances (SPM1) during fiscal year (FY) 2007. However, management could
further optimize efficiency through the more effective use of VMF and local commercial
resources. Better optimizing its resources could save the Southeast Area an estimated
$27 million over 10 years.

Scheduled Maintenance Performance

Southeast Area VMF units and local commercial vendors (LCVs) completed an average
of 95 percent of their required SPMs. Five VMF units completed all of the SPMs, and
five VMF units ranged between 81 and 95 percent of the required SPMs. Not
completing all the required SPMs occurred because of:

    •   A shortage of assigned maintenance technicians.

    •   An inadequate process for VMF units to manage available maintenance and
        repair resources.



1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or
meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled Maintenance                                                   DR-AR-08-007
 Service in the Southeast Area


      •    The practice of changing vehicle status from “maintenance not performed” (also
           called “maintenance in arrears”) to “maintenance performed” by adjusting the
           SPM schedule.

      •    Frequent reluctance on the part of Vehicle Post Offices (VPO) to release a
           vehicle for an SPM because the VMF could not provide them with a reserve
           vehicle.2

Without completing all the required scheduled maintenance and repairs, some of the
Postal Service vehicles are vulnerable to breakdowns, which could adversely affect
timely mail delivery, and potentially affect the well-being of employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of Long Life
Vehicles (vehicles that are more than 20 years old) until 2018, we believe it is critical
that these vehicles receive SPMs in a timely manner. Click here to go to Appendix B for
additional information about this issue.

We recommend the Vice President, Southeast Area Operations, direct district managers
to:

1. Assess vehicle maintenance technician positions at individual vehicle maintenance
   facilities to ensure sufficient staff is available for maintenance service.

2. Monitor and track key maintenance activities to ensure timely completion of all
   required scheduled maintenance and repairs.

3. Require vehicle maintenance facility officials to immediately conduct all maintenance
   in arrears and properly record vehicle status if maintenance was not conducted.

4. Discontinue the practice of adjusting the vehicle maintenance schedules when they
   have vehicles in arrears balances to eliminate situations where maintenance was not
   performed.

Optimum Use of Resources

The Southeast Area did not always optimize its resources to ensure that maintenance
and repair funds were expended in the most efficient and cost-effective manner.
Specifically, maintenance officials often used LCVs for vehicle maintenance and repairs
when using VMF resources would have been more efficient and economical. Likewise,
VMF resources were often used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles between facilities for maintenance and repairs when more economical means
existed.


2
    Reserve vehicles are used to replace vehicles until scheduled preventive maintenance is completed.




                                                           2
Vehicle Maintenance Facilities – Scheduled Maintenance                                               DR-AR-08-007
 Service in the Southeast Area


This occurred because the VMF units’ vehicle maintenance plan not fully consider:

      •    The optimal combination of VMF resources and LCVs for performing scheduled
           maintenance and repairs.

      •    The cost-effectiveness of using LCVs instead of VMF resources to shuttle
           vehicles between facilities for maintenance and repairs.

As a result, the Southeast Area expended more resources than necessary to complete
vehicle maintenance and repairs. By optimizing its resources, the Southeast Area could
reduce operating costs by about $2.7 million annually, or more than $27 million over 10
years. Click here to go to Appendix C for additional information.

We recommend the Vice President, Southeast Area Operations, direct district managers
to:

5. Work with vehicle maintenance facility officials to:

      •    Maintain the most efficient combination of vehicle maintenance facility and local
           commercial resources based on geographical location and costs.

      •    Make optimal use of the Postal Service’s national vehicle shuttle agreement or
           other local commercial shuttle services, when cost-effective, for transporting
           vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings, recommendations, and monetary impact3 of over
$27 million over 10 years. Management stated they will focus on completing 100
percent of required SPMs and integrate VMF and local commercial resources to
optimize efficiency and reduce costs. They will require each district to conduct an
assessment to quantify the resources required to perform all SPMs. Furthermore,
management plans to send a memorandum directing districts to monitor and track key
maintenance activities. In addition, Southeast Area management issued a
memorandum to the district managers instructing them to complete missing or past due
maintenance in arrears and all remaining scheduled maintenance work. The Area
Vehicle Maintenance Programs Analyst will monitor and follow-up monthly with each
district. Management will also ensure use of a national shuttle agreement or other local
commercial service. We have included management’s comments, in their entirety, in
Appendix G.




3
    In subsequent discussions held with management, we reached agreement on total monetary impact.




                                                         3
Vehicle Maintenance Facilities – Scheduled Maintenance                         DR-AR-08-007
 Service in the Southeast Area


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report and management’s
corrective actions should resolve the issues identified in the report.

We will report $27,620,773 of funds put to better use in our Semiannual Report to
Congress. The OIG considers recommendation 5 significant and, therefore, it requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when management completes corrective actions. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    Shelba D. Burwell
    Terrence B. Fralick
    Anthony J. Graffeo
    Louis A. Lopez
    Rayma L. McClellan
    Ferrell T. Pinson
    Gary C. Romano
    George P. Tong
    Terry L. Welch
    Richard T. Wells
    Katherine S. Banks




                                                   4
Vehicle Maintenance Facilities – Scheduled Maintenance                        DR-AR-08-007
 Service in the Southeast Area


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested over $3 billion in vehicle assets for the purpose of
transporting and delivering the mail. Vehicle inventory consists of 219,522 delivery,
transport, and administrative vehicles. Delivery and collection vehicles (Figure 1)
account for 195,211 or about 89 percent of the total fleet. The Postal Service acquired
the majority of the long life vehicles between 1987 and 1994 and planned to maintain
them for 24 years. Since about 7,700 of these vehicles were purchased in 1987, they
are approaching the end of their useful life. Additionally, the Postal Service recently
stated that capital constraints now dictate that many of these vehicles must stay in
service until 2018 — 7 years past the planned lifespan.

                                          Figure 1
                    Delivery and Collection Vehicles in VMFs for SPM




                                        Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for maximum mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Auxiliary VMFs were established for situations where vehicle
maintenance requirements exceed VMF resources or when shuttle time or geographical
distances warrant the use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle-related
positions and ensuring an adequate scheduled maintenance program.
Vehicle maintenance managers have overall responsibility for oversight of all
maintenance and repair services performed at VMF units, as well as any work
contracted to commercial vendors. Although the VMF manager has overall
responsibility for vehicle maintenance, vehicles are usually assigned to a VPO. VPOs
can be post offices, branches, stations, associated offices, or other delivery and support
facilities. Officials at VPOs can also contract with LCVs for maintenance and repair




                                                   5
Vehicle Maintenance Facilities – Scheduled Maintenance                           DR-AR-08-007
 Service in the Southeast Area


services, but they are required to document the repairs and obtain the VMF manager’s
approval for repairs and services costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating how and when each vehicle will receive
scheduled maintenance. The handbook also emphasizes preventive or scheduled
maintenance over reactive or unscheduled maintenance.

The Postal Service also established a Model Vehicle Maintenance Facility Performance
Review program. The review program is an integral part of VMF operations and a key
tool for determining the efficiency of a unit at any given point in time and for identifying
areas that require corrective action. Districts must ensure that self-reviews are
performed in all vehicle maintenance facilities on a quarterly basis. VMFs must achieve
a score of 85 or more to be certified. The area must certify or recertify each unit at least
every three years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows the VMF expenses including commercial vendors’ expense for FY 2007.

                      Table 1. Maintenance Expenditures for FY 2007 by Area
                                          VMF and Commercial Expenditures
                                     Commercial
                    Postal Service       Vendor         VMF          Total
                        Area of      Expenses in Expenses in Expenses in
                      Operation         FY 2007       FY 2007       FY 2007
                    Southeast         $13,867,484    $52,648,111  $66,515,595
                    Great Lakes         15,152,866    46,536,525    61,689,391
                    Eastern             12,213,149    45,085,152    57,298,301
                    Western             10,382,055    45,808,493    56,190,548
                    Pacific              9,105,547    42,819,217    51,924,764
                    Northeast           10,821,346    37,860,317    48,681,663
                    New York            12,433,942    36,814,803    49,248,745
                    Southwest            7,194,386    36,503,347    43,697,733
                    Capital Metro        7,643,667    32,808,458    40,452,125
                    Total             $98,814,442 $376,884,423 $475,698,865
                   Source: Postal Service Category Management Center




                                                   6
Vehicle Maintenance Facilities – Scheduled Maintenance                                              DR-AR-08-007
 Service in the Southeast Area



OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether the Southeast Area accomplished
all required scheduled maintenance, and whether they integrated both VMFs and local
commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
for three VMFs in the Southeast Area. We documented the scheduled maintenances,
the number of SPMs required, and whether they were conducted in a timely manner.
We reviewed the Web-Enabled Enterprise Information System (WebEIS) to analyze
vehicles in “maintenance in arrears” status and compared the number of SPMs
completed to the actual maintenance records. We also obtained and reviewed Web-
based Complement Information System (WebCOINS) data on the complement of
vehicle maintenance technicians.

We reviewed FY 2007 scheduled maintenance services for selected Southeast Area
VMFs (See Appendix E). We identified the number of Preventive Maintenance
Inspections (PMIs)4 to be performed at each VMF, the VPOs where the vehicles were
located, and the VPOs’ distance from the VMFs; and documented the number of vehicle
maintenance technicians assigned to each VMF.

We identified each VMF’s and LCV’s expenditures for scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented
the number of SPMs and SPM inspections required for each location on a yearly basis.
Using the VMAS vehicle work order history, we analyzed the average time to perform
an SPM at the 10 VMFs reviewed in our sample.

We also developed an optimization model that used the above operational data to
establish a baseline, standards, key characteristics, and shuttle usage and cost. Using
this data, we established an optimum operating efficiency for each VMF. Click here to
go to Appendix D, “Calculation of Cost Savings,” for the model and assumptions we
used to compute monetary benefits.

We conducted this performance audit from October 2007 through September 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We relied on data from VMAS
and WebEIS. We did not audit these systems, but performed a limited review of data
integrity to support our reliance on the data. We discussed our observations and
4
 A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.




                                                        7
Vehicle Maintenance Facilities – Scheduled Maintenance                            DR-AR-08-007
 Service in the Southeast Area


conclusions with management officials on August 11, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued three reports related to our objectives.

                                  Report                                     Monetary
         Report Title             Number                Final Report Date    Outcomes
      Vehicle                  DR-AR-08-006            August 14, 2008      $34,522,159
      Maintenance
      Facilities –
      Scheduled
      Maintenance
      Service in the
      Southwest Area
      Maintenance and          DR-MA-07-005            September 21, 2007   $1,571,517
      Repair Payments
      to Commercial
      Vendors Using
      Postal Service
      Form 8230,
      Authorization for
      Payment
      Management of            DR-AR-06-005            June 14, 2006        $22,796,487
      Delivery Vehicle
      Utilization

The Southwest Area audit, like this one of the Southeast Area, is part of a series of
audits on this topic. Like this audit, the Southwest Area audit concluded that they did
not complete SPMs on all vehicles, and did not always integrate both VMF and LCV
resources for optimum use of available resources. Management stated that a shortage
of assigned maintenance technicians contributed to these conditions; however, while
some locations required additional staff, our analysis did not support an overall need for
additional maintenance technicians.

The 2007 audit concluded that using the Postal Service (PS) Form 8230, Authorization
for Payment, to pay commercial vendors for maintenance and repair services was not
cost-effective and did not have adequate controls to reconcile payments and ensure
that repair costs were reasonable. This situation existed because management did not
realize the cost and time impact of using PS Form 8230, and therefore did not monitor
its use. As a result, the Postal Service will spend at least $1.2 million more than
necessary; will not have sufficient assurance that vehicles are appropriately repaired;




                                                   8
Vehicle Maintenance Facilities – Scheduled Maintenance                      DR-AR-08-007
 Service in the Southeast Area


and will not receive more than $301,799 in revenues from Voyager Card rebates. We
recommended that district management discontinue, with some exceptions, the use of
PS Form 8230 to pay commercial vendors for maintenance and repair. Management
agreed with our findings and recommendations.

The 2006 audit concluded the Postal Service officials have made significant strides in
reducing costs associated with delivery vehicle expenditures over the past 3 years.
However, delivery management officials could further improve the use of vehicles that
support delivery operations. Postal Service officials maintained excess and underused
delivery vehicles, and they leased delivery vehicles from employees and commercial
vendors when Postal Service-owned vehicles were available. Additionally, delivery
officials did not monitor the reasonableness of payments or the need for contracts with
employees for use of their personal vehicles. These conditions existed primarily due to
management not consistently following guidance and not having visibility and control of
excess Postal Service-owned delivery vehicles within their areas. Additional controls
over payment to employees could also reduce the potential for mismanagement or
uneconomical payments. Management agreed with our findings, recommendations,
and monetary impact.




                                                   9
Vehicle Maintenance Facilities – Scheduled Maintenance                                               DR-AR-08-007
 Service in the Southeast Area


              APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Southeast Area completed 95 percent of their required SPMs during FY 2007.5
Five VMF units completed all of their required SPMs. The other five VMF units
completed between 81 and 95 percent of their required SPMs. (See Table 2.)

                   Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                       Required In                 Percentage
                       VMF Location      FY 2007      Performed    Performed
                      Miami                   5,761         5,214           91
                      Montgomery              1,186         1,117           94
                      Memphis                 3,589         3,423           95
                      Sarasota                1,296         1,296          100
                      Tampa                   4,029         4,029          100
                      Pensacola               1,319         1,319          100
                      Macon                     900           781           87
                      Birmingham              2,424         2,424          100
                      Fort Lauderdale         3,181         3,181          100
                      Jackson                 1,446         1,169           81
                      Total/Average          25,131       23,953            95
                      Source: VMAS and OIG optimization model

Several factors contributed to the five VMFs not completing all their required SPMs.

    o Insufficient Staff. Officials stated that they did not complete all of the required
      SPMs due to a shortage of assigned maintenance technicians. Officials
      determine their technician staffing requirements based on either the “rule of
      thumb” or SPM-per-technician ratio. Officials stated that they used the ratio
      concept because the Postal Service has not established a formal policy for
      staffing VMF maintenance technician positions.6 We reviewed WebCOINS which
      showed the Southeast Area VMFs have 22 full-time maintenance technician
      vacancies. However, our optimization model7 analysis only supported the need
      for 16 additional full-time maintenance technicians in these VMFs. (See Table 3.)




5
  In FY 2007, approximately 25,131 SPMs were required in the 10 units we reviewed in the Southeast Area.
6
  We intend to address a need for a standardized staffing matrix in our national capping report to Postal Service
Headquarters.
7
  Our optimization model’s solution bases staff increase/decrease requirements on the number of “assigned” full-time
maintenance technician positions.




                                                         10
Vehicle Maintenance Facilities – Scheduled Maintenance                                              DR-AR-08-007
 Service in the Southeast Area



                             Table 3. Estimated VMF Staffing Increase/Reduction
                                   Needs Based on OIG Optimization Model
                                                                   Staff Increase
                                    Assigned     Technicians    (Reduction) per OIG
                  VMF Location      Vehicles      Assigned       Optimization Model
                 Miami                   2,610             27                      7
                 Montgomery                469             10                      0
                 Memphis                 1,427             26                      2
                 Sarasota                  648             12                      0
                 Tampa                   1,868             42                      0
                 Pensacola                 549             15                      0
                 Macon                     313               6                     0
                 Birmingham                923             11                      1
                 Fort Lauderdale         1,547             18                      6
                 Jackson                   589             11                      0
                 Total                 10,943             178                     16
                Source: VMAS, VMF management, and OIG Optimization Model

    o Reporting and Tracking of Maintenance Activities. Our review indicated that
      officials were completing Model Vehicle Maintenance Facility Performance
      Reviews for the VMFs; however, the area’s oversight efforts were not effective in
      managing vehicle maintenance programs to ensure timely completion of all
      SPMs due to inadequate and unreliable performance data.8 For example, two of
      the 10 VMFs in our sample indicated completion of more than 90 percent of their
      required SPMs in FY 2007, whereas the maintenance status reports showed no
      vehicles requiring maintenance at the end of September 2007.

    o Maintenance Reserve Vehicles. Our review indicated that the VPO officials were
      reluctant to release a vehicle for SPM because the VMF could not provide a
      substitute or reserve vehicle.9 Our review of the 10 VMF units indicated 377
      reserve vehicles assigned, however, four of the 10 VMFs had shortages, five
      VMFs had overages, and the remaining VMF had a sufficient number of reserve
      vehicles assigned.10

    o “Maintenance in Arrears” and Schedule Adjustment. The Southeast Area VMFs
      sometimes changed vehicle status from “maintenance not performed” (also
      called “maintenance in arrears”) to “maintenance performed.” For example, one
      VMF indicated that on August 31, 2007, 164 vehicles were reflected as
      “maintenance in arrears” in WebEIS. The location also had a consistent number
      of vehicles in arrears every month during FY 2007, approximately 35 to 178
8
  Per Handbook PO 701, Fleet Management.
9
  VMFs provide reserve vehicles to VPOs as a replacement while an assigned vehicle is undergoing scheduled
maintenance.
10
   The OIG previously reported on maintenance reserve vehicles in Management of Delivery Vehicle Utilization,
(Report Number DR-AR-06-006, dated June14, 2006).




                                                        11
Vehicle Maintenance Facilities – Scheduled Maintenance                          DR-AR-08-007
 Service in the Southeast Area


           vehicles per month. However, on September 30, 2007, this location had no
           vehicles in arrears. VMF management could not show whether the vehicles
           received the proper scheduled maintenance.11 Officials stated that they adjusted
           the SPM schedule to prepare the annual maintenance plan for the next FY.

Without completing all the required scheduled maintenance and repairs, some of the
Postal Service vehicles are vulnerable to breakdowns, which could adversely impact
timely mail delivery, and potentially impact the well-being of employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of Long Life
Vehicles (vehicles that are more than 20 years old) until 2018, we believe it is critical
that these vehicles receive the required maintenance.




11
     The “Vehicle in Arrears” status is a performance measure for VMFs.




                                                          12
Vehicle Maintenance Facilities – Scheduled Maintenance                                             DR-AR-08-007
 Service in the Southeast Area


                        APPENDIX C: OPTIMUM USE OF RESOURCES

The Southeast Area did not always optimize its resources to ensure that maintenance
and repair funds were expended in the most efficient and cost-effective manner.
Specifically, maintenance officials often used LCVs for vehicle maintenance and repairs
when using VMF resources would have been more efficient and economical. Likewise,
VMF resources were often used when LCVs would have been more efficient and
economical. Additionally, VMF officials used maintenance employees to shuttle
vehicles from the VPO to the VMF when more economical means existed.

Several factors contributed to these conditions.

     o Optimum Use of VMF and Commercial Resources. The vehicle maintenance
       plan did not consider an optimum combination of both VMF and commercial
       resources.12 Generally, it is more cost effective13 for the VMF to perform SPMs
       on VPO vehicles stationed within 50 miles of the VMF. However, a LCV should
       perform SPMs on vehicles when the VPO is more than 50 miles from the nearest
       VMF. We determined that 4,887 SPMs should have been performed at the other
       site - either the VMF or the commercial facility. (See Table 4.)

                    Table 4. VMF and Local Commercial Vendor Resources
                                                           SPMs          Total
                             FY 2007                    Performed      SPMs That
                        SPMs Performed                Using the Least  Could Have
                               by           Total      Optimal Site    Been More
                                  Local     SPMs               Local    Optimally
         VMF Location    VMF     Vendors Performed VMF Vendors         Performed
         Miami           1,837      3,377     5,214    127       1,295       1,422
         Montgomery      1,083         34     1,117    237          21         258
         Memphis         2,817        606     3,423     46         283         329
         Sarasota        1,081        215     1,296    253         100         353
         Tampa           3,920        109     4,029       0        109         109
         Pensacola       1,219        100     1,319     51          88         139
         Macon             606        175       781     45          17           62
         Birmingham           2,033          391             2,424      0         387               387
         Fort
                              1,714        1,467             3,181      0       1,403             1,403
         Lauderdale
         Jackson              1,085           84          1,169        424          1               425
         Total               17,395        6,558         23,953      1,183      3,704             4,887
        Source: VMAS data and OIG optimization model



12
   The VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model
estimated the number completed by analyzing all work orders assigned to code 22 (scheduled maintenance), and
with some adjustment, considered all work over 2 hours as an SPM.
13
   Cost effectiveness is based on the overhead costs to transport vehicles between the VMF and the VPO, vehicle
maintenance technician or other VMF personnel.




                                                        13
           Vehicle Maintenance Facilities – Scheduled Maintenance                                                    DR-AR-08-007
            Service in the Southeast Area


                o Vehicle Shuttling. In most cases, we found that the Postal Service’s national
                  vehicle shuttle agreement or local commercial shuttling services were more cost-
                  effective than using VMF maintenance technicians. The Southeast Area used
                  13,469 workhours for vehicle maintenance technicians to shuttle vehicles rather
                  than perform maintenance. The shuttle hours related to SPM were equivalent to
                  seven vehicle maintenance technician positions at a cost of $579,723.14 (See
                  Table 5.)

                            Table 5. Vehicle Maintenance Technician Hours used for Shuttling
                                                             Percentage                                                               Cost Of
                     Number Of     Estimated        Total     Of Direct      Shuttle                                                  Shuttle
                      Vehicle      Scheduled       Shuttle   Maintenance Hours Used         Equivalent                              Hours Used
                    Maintenance Maintenance         Hours    Hours Used        For         Maintenance                                  By
                    Technicians       Hours        Used In       For        Scheduled      Technician                               Maintenance
 VMF Location        Assigned       Available      FY 2007    Shuttling    Maintenance      Positions                               Technicians
 Miami                        27        37,886          34.7          0%             4.5           0.00                                     $194
 Montgomery                   10        14,032       1,067.6          8%          727.9            0.41                                   31,329
 Memphis                      26        36,483       7,379.9         20%        2,627.3            1.50                                  113,079
 Sarasota                     12        16,838         944.1          6%          150.4            0.09                                    6,473
 Tampa                        42        58,934       7,960.8         14%        4,280.9            2.44                                  184,250
 Pensacola                    15        21,048       1,573.5          7%        1,525.7            0.87                                   65,666
 Macon                         6          8,419         28.1          0%            28.1           0.02                                    1,209
 Birmingham                   11        15,435       4,003.1         26%        2,034.7            1.16                                   87,573
 Fort                         18        25,258       2,515.7         10%          181.0            0.10                                    7,790
 Lauderdale
 Jackson                         11           15,435         3,679.0               24%            1,908.9                1.09            82,159
 Total/Average                 178           249,770        29,186.3               12%           13,469.4                7.68          $579,723
Source: VMAS and OIG Optimization Model

           We found the Southeast Area VMF managers and VMPA to be proactive in managing
           vehicle maintenance and receptive to the intent of our audit and recommendations.
           Management did express concern that their assessment of available staff contributed to
           their not optimizing the use of both VMF and commercial available resources to reduce
           operating cost. This assessment included a district level decision to use available and
           sufficient VMF staff resources for shuttling, incorporating multi-tasking, trustworthiness
           in their VMFs, and no knowledge of a national shuttling agreement.

           The OIG acknowledges the issues management raised and the financial challenges
           currently faced by the Postal Service that affect VMF operations. Notwithstanding these
           concerns and challenges, in our opinion, opportunities exist to become more efficient
           and potentially save money. Specifically, the Southeast Area could lower overall VMF
           operating costs by approximately $2.7 million annually. These efficiencies, when
           projected for the 23 VMFs in the Southeast Area over a 10-year period, could save
           $27,620,773. (See Appendix D.)
           14
             This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to
           any actual reductions in this report.




                                                                       14
Vehicle Maintenance Facilities – Scheduled Maintenance                                                  DR-AR-08-007
 Service in the Southeast Area



                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $27,620,773 in funds put to better use over the next 10 years for the
Southeast Area’s 23 VMFs.15

                                                Savings in Dollars
                        VMF Location         Annual Savings         Savings over 10 Years
                       Miami16                      $226,745                   $2,267,452
                       Montgomery                        43,801                        438,012
                       Memphis                         132,767                       1,327,666
                       Sarasota                          93,819                        938,192
                       Tampa                           323,151                       3,231,509
                       Pensacola                         49,977                        499,772
                       Macon                              8,284                         82,841
                       Birmingham                        67,038                        670,376
                       Fort Lauderdale                 213,584                       2,135,835
                       Jackson                           41,738                        417,376
                       Totals                       $1,200,904                    $12,009,032
                       Projected Savings Over 23 VMFs
                                                                                  $27,620,773
                       in Southeast Area
                     Source: OIG Optimization Model

We calculated the savings based on the following methodology and assumptions.

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         The number of SPMs that a vehicle requires is determined at the beginning of the
         year based on the demands that the assigned route places on the vehicle. All
         SPMs for a given year must be performed on each vehicle; however, the VMF
         may delegate some of this workload to commercial vendors that are near the
         VPOs. We refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPMs to be
         performed by the VMFs' LCVs. We took into consideration the mechanic labor
         costs and all relevant shuttling costs. As with the SPMs, VMFs may contract out

15
   At 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $13.84 and
$41.40 million. We used the mid point estimated of $27.62 million in our statistical projection.
16
   For the Miami VMF, the OIG optimization model calculated savings in efficiency and shuttling of $214,081 and
$60,136, respectively for total savings of $274,218. The total savings was then multiplied by a discount factor of 0.79
for an annual estimated savings of $226,745 and a 10-year savings of $2,267,452. This same formula was used for
the nine other VMFs and projected to the 23 VMFs in the Southeast Area.




                                                          15
Vehicle Maintenance Facilities – Scheduled Maintenance                                             DR-AR-08-007
 Service in the Southeast Area


        shuttling. The Postal Service has a national vehicle shuttle agreement, and the
        OIG used that rate in the analysis. However, VMFs can use a less expensive
        local shuttle contractor if one can be identified.

    •   We developed the optimization model to find a least-cost solution based on
        performing all required SPMs. We used the VMFs’ FY 2007 operational data to
        establish a baseline, assuming that any SPMs not currently performed by VMFs
        are completed by LCVs.17 We restricted the scope of this audit to maintenance
        technicians’ time spent performing scheduled maintenance and shuttling
        activities. This analysis draws no conclusions regarding the time dedicated to
        other activities or how maintenance technicians used the remainder of their time.

    •   We optimized the VMFs’ scheduled maintenance and shuttling time for each of
        the next 10 years, assuming that the Postal Service would reduce the labor
        contingent by 4.4 percent per year, the historical Southeast Area attrition rate.18
        This optimization gives the least-cost solution and specifies how the SPMs at
        each VPO should be distributed between the VMFs and the LCVs. The model
        shows which shuttling jobs should be done by both the VMFs and contractors.
        The model analyzes all costs and hours (for SPMs at VMFs, SPMs at LCVs,
        VMF shuttling, and contract shuttling). The model also shows the SPMs
        performed by VMFs and LCVs, and to the total amount that could be more
        optimally performed by either.

    •   In these optimizations, we assumed that each VMF would operate at a standard
        efficiency. We used Southeast Area’s VMFs’ average time per SPM as a
        standard for the time it takes to complete an SPM in that area. If a particular
        VMF performed better than this standard, we assumed that the VMF maintained
        its current efficiency.

    •   The VMAS does not track the number of SPMs accomplished for each vehicle.
        The OIG’s efficiency and optimization model estimated the number of SPMs
        completed by analyzing all work orders assigned to code 22 (scheduled
        maintenance), and considered all work lasting at least 2 hours19 as an SPM. We
        explained the process to the VMF managers and then confirmed/adjusted the
        number of SPMs required and completed.

17
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS located at the VMFs and
transmitted to the mainframe computer at San Mateo Information Technology and Accounting Service Center.
Because a VMF may not perform all its required SPMs, we assumed that LCVs would perform the remaining SPMs.
In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs with these
additional SPMs and determined a comparable solution by reassigning this SPM to the other VPOs having a shortfall.
We accomplished this in part by assuming that the baseline case kept the scheduled maintenance hours and
shuttling hours constant at current levels.
18
   The historical attrition rate for Southeast Area maintenance technicians was determined by averaging the past 6
years (2001 - 2007) of data obtained from the WebEIS.
19
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.




                                                       16
Vehicle Maintenance Facilities – Scheduled Maintenance                                           DR-AR-08-007
 Service in the Southeast Area



       •   We identified cost savings if the VMF was not efficiently using its shuttling time.
           We compared the VMF's total shuttling time to the aggregate time that should be
           needed to perform all of the VMF’s shuttling, assuming that two vehicles were
           transported on each trip. The cost of any excess time was time that could have
           been saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we made certain assumptions regarding the minimum and
           maximum levels of overtime. The number of hours of straight time worked for
           each mechanic per year is 1,754.20

       •   Based on the above analyses and projections, we estimated that the Southeast
           Area could reduce costs by using local commercial resources for shuttling and
           SPM requirements when appropriate. We projected over the Southeast Area’s
           universe of 23 VMFs, a reduction of costs by approximately $2.7 million annually,
           or more than $27 million over a 10-year period. These savings include
           consideration for an overall decrease of seven vehicle maintenance technician
           positions through attrition over time.




20
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”




                                                       17
Vehicle Maintenance Facilities – Scheduled Maintenance                      DR-AR-08-007
 Service in the Southeast Area


 APPENDIX E: SELECTED DISTRICTS AND VEHICLE MAINTENANCE FACILITIES


                                  District                      VMF
                             Alabama                      Birmingham
                                                          Montgomery

                             Mississippi                  Jackson

                             North Florida                Pensacola

                             South Florida                Fort Lauderdale
                                                          Miami

                             South Georgia                Macon

                             Suncoast                     Sarasota
                                                          Tampa

                             Tennessee                    Memphis
                        Source: OIG Experts Sample




                                                     18
Vehicle Maintenance Facilities – Scheduled Maintenance                       DR-AR-08-007
 Service in the Southeast Area


                    APPENDIX F: SCHEDULED MAINTENANCE PROCESS21




21
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.




                                                       19
Vehicle Maintenance Facilities – Scheduled Maintenance     DR-AR-08-007
 Service in the Southeast Area



                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-007
 Service in the Southeast Area




                                                   21
